No.

IN THE
SUPREME COURT OF THE UNITED STATES

LAQUANDA GILMORE GARROTT,
Petitioner,
v.
UNITED STATES OF AMERICA,

Respondent.

PROOF OF SERVICE

I, Jackie Perezek, Esq., declare that on this date, September 28, 2020, as
required by Supreme Court Rule 29, I served the enclosed Petition for a Writ of
Certiorari on each party to the above entitled case or that party’s counsel, by
depositing an envelope containing three copies of the above document in the United
States mail, properly addressed to each of them and with first-class postage prepaid.
The names and addresses of those served are as follows:

Solicitor General of the United States
U.S. Department of Justice

Room 5616

950 Pennsylvania Avenue
Washington, DC 20530-0001

(202) 514-2217
supremectbriefs@usdoj.gov
I declare under penalty of perjury that the foregoing is true and correct. I
further certify that all parties required to be served have been served.

Executed on September 28, 2020.

JAGKIE PERCZEK

Counsel of Record
BLACK, SREBNICK,

KORNSPAN & STUMPF, P.A.
201 S. Biscayne Boulevard, #1300
Miami, FL 33131
Telephone (305) 371-6421
JPerczek@RoyBlack.com

Counsel for Petitioner
